Office of Inspector General


December 28, 2011

MEMORANDUM

TO:                  Steve Tashjian, Director
                     Contract Audit and Support Division, Office of Acquisition & Assistance

FROM:                Joy Kadnar, Director /s/
                     Inspections & Evaluations Division, Office of Audit

SUBJECT:             Review of Audits of Foreign Organizations Expending Centrally Funded
                     Assistance (Report No. 2-000-12-002-S)

This memorandum transmits our final report on the subject review. Although not an audit report,
the report contains four recommendations to improve oversight of USAID/Washington-issued
awards. In finalizing the report, we carefully considered your comments on the draft report, and
we have included them in Appendix II.

Based on an evaluation of management comments, management decisions have been reached
on all four recommendations. The Audit Performance and Compliance Division will make
determinations of final action on these recommendations upon completion of the planned
corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
USAID policy requires that foreign nonprofit organizations, governments, and subrecipients that
expend $300,000 or more under USAID agreements and awards during their fiscal year must
have an annual audit of those funds. It also requires that these audits be conducted in
accordance with the ―Guidelines for Financial Audits Contracted by Foreign Recipients”
(Guidelines). The Contract Audit and Support Division of the Office of Acquisition and
Assistance in USAID’s Management Bureau is responsible for determining the financial audit
requirements applicable to foreign recipients of centrally funded awards and ensuring that
required audits of them are performed. To assist in this effort, the Contract Audit and Support
Division is required to develop, maintain, and publish an inventory of foreign organizations
receiving centrally funded awards.

Concerned about whether required audits have been performed, in April 2011 the USAID Office
of Inspector General (OIG) surveyed USAID to determine whether required audits of foreign
recipients were being performed and to quantify the amount of money being audited. Few
USAID headquarters organizations responded to the survey. Accordingly, OIG conducted this
review to determine whether required audits of foreign recipients of centrally funded awards
were performed in fiscal year 2009.

Making this determination was difficult because information on the amount of USAID funds
spent by each foreign recipient during their fiscal year was not readily available. Therefore, we
agreed with Office of Acquisition and Assistance (OAA) to use an estimation procedure to
determine which recipients should have been audited. We assumed that awards were spent on
a ―straight line‖ basis (e.g. for a 4-year award, we assumed that one fourth of the award amount
was spent each year), and we assumed that recipients with $500,000 or more in estimated
expenditures during fiscal year 2009 should have had an audit performed. We believe that this
estimation procedure, with which OAA agreed, underestimates the number of recipients
requiring audit because we used a $500,000 threshold instead of the $300,000 threshold in the
Guidelines.

Only 32 of 84 foreign recipients (38 percent) with estimated expenditures of $500,000 or more
had an audit performed, and 13 of the audits were incomplete because they did not cover all
USAID awards to the recipient. As a result, about a half a billion dollars in USAID-provided
funding was not audited.1

Specifically, the review found:

      Audits were not performed (page 4).

      Some audits did not cover all USAID funding (page 5).

To address these matters, this report recommends that the Contract Audit and Support Division:

1. Require that unaudited recipients be audited for fiscal year 2009 (page 4).

2. Require that incompletely audited recipients be reaudited for fiscal year 2009 (page 6).

1
    Based on 2009 disbursement information provided by the Contract Audit and Support Division.

                                                                                                  2
3. Develop and publish fiscal year 2009, 2010, and 2011 inventories of recipients (page 6).

4. Notify recipients that should have had fiscal year 2009 audits of potential sanctions (page 6).

Our evaluation of management comments is on page 7. Appendix I contains a discussion of the
review’s scope and methodology. Management comments are presented in their entirety in
Appendix II. Appendix III lists unaudited recipients. Details on review results follow.




                                                                                                3
REVIEW RESULTS
Audits Were Not Performed
USAID’s Automated Directives System’s Chapter 591.3.2 requires that foreign nonprofit
organizations, host governments, and subrecipients (i.e., organizations that receive USAID
funds either directly or through a prime contractor or recipient) that expend $300,000 or more
under USAID awards during their fiscal year must have an annual audit of those funds
conducted. This audit must be conducted according to the ―Guidelines for Financial Audits
Contracted by Foreign Recipients.” Paragraph 1.5 of the Guidelines reiterates this requirement:

          USAID agreements with foreign governments and foreign nonprofit organizations
          require that a recipient-contracted audit be performed annually in accordance
          with these Guidelines when the recipient expends $300,000 or more in USAID
          awards in its fiscal year.

OIG must receive audits of foreign prime recipients conducted in accordance with the
Guidelines for desk review within 9 months of the end of the fiscal year in which the
expenditures were incurred.

As of August 2011, fiscal year 2009 audit reports were not provided to OIG for 52 of 84 foreign
recipients required to have audits performed according to the estimation procedure used in this
review.2 These 52 foreign recipients are listed in Appendix III.

These audits were not performed because the Contract Audit and Support Division has not
maintained a key supporting system to produce an inventory of all organizations receiving
USAID awards. Moreover, the Contract Audit and Support Division is responsible for both
identifying the financial audit requirements for foreign organizations with centrally funded
awards and ensuring that required audits of them are performed. The system is being upgraded
and has a target date of May 2012 to become operational.

Over $400 million of USAID funding was disbursed in 2009 to these 52 foreign implementers3
and was not subject to audit scrutiny. This sort of lapse could diminish public confidence that
federal funding has been properly accounted for.

The following recommendation is intended to provide for that oversight.

      Recommendation 1. We recommend that the Contract Audit and Support Division
      require that, among the 52 foreign recipients identified in Appendix III, those with active
      awards be audited for fiscal year 2009 in accordance with the Guidelines for Financial
      Audits Contracted by Foreign Recipients.




2
    For more information, see Scope and Methodology on page 8.
3
    Calculated by Contract Audit and Support Division staff.

                                                                                                    4
Some Audits Did Not Cover All
USAID Funding
Paragraph 1.22 in the Guidelines notes that foreign recipients must have one annual recipient-
contracted audit performed that would cover all USAID funding to the recipient from all sources.
These comprehensive audits must be performed in accordance with the Guidelines and their
reports presented to OIG for quality assurance and issuance.

The Guidelines also specify sanctions that may be imposed on recipients in the event of
continued inability or unwillingness to have required audits performed. These sanctions could
include the suspension of disbursements.

For fiscal year 2009, incomplete audit reports were provided to OIG for 13 of 84 foreign
nonprofit or foreign government recipients of centrally funded awards. These recipients are
listed in the table below. These audit reports omitted one or more centrally funded awards that
were active in fiscal year 2009. In one instance, ten centrally funded awards were not included
in the recipient’s audit.

                     Centrally Funded Recipients With Incomplete Audits

    No.                                        Recipient Name
     1       Humedica International
     2       National Society for Earthquake Technology
     3       Norwegian Refugee Council
     4       MENTOR
     5       Asian Disaster Preparedness Center
     6       Medair
     7       Action contre la Faim/France
     8       Asociacion Share de Guatemala
     9       German Agro Action
    10       Oxfam GB
    11       Tearfund
    12       GOAL
    13       Agency for Technical Cooperation and Development


Audits of these 13 recipients were not sufficiently comprehensive because the recipients and
the Contract Audit and Support Division did not fulfill their responsibilities. The recipients did not
make compliance with the Guidelines a high priority. Since audits were performed, it is
reasonable to assume that the recipients were aware that audit requirements applied to them
and that they should have complied with those requirements. For its part, the Contract Audit
and Support Division did not produce information about the awards to be audited to create
awareness about all the sources of funding that should have been audited. As mentioned in the
previous finding, the Division has not kept current a key system to produce periodic inventories
of recipients and their awards. This prevented the Division from meeting its responsibilities to
both identify the financial audit requirements for foreign organizations with centrally funded
awards and ensure that required audits of them are performed. The system is being upgraded,
with a target date of May 2012 to become operational.



                                                                                                    5
More than $85 million in USAID funding was disbursed in 2009 to these 13 foreign
implementers4 and was not subject to proper audit scrutiny. The incomplete nature of the audit
work performed raises questions about the recipients’ stewardship of these funds in fiscal year
2009 and in subsequent years.

The following recommendations are intended to address these deficiencies.

      Recommendation 2. We recommend that the Contract Audit and Support Division
      require that, among the 13 foreign recipients identified in the table above, those with
      active awards be reaudited for fiscal year 2009 in accordance with the Guidelines for
      Financial Audits Contracted by Foreign Recipients.

      Recommendation 3. We recommend that the Contract Audit and Support Division
      develop and publish inventories for fiscal years 2009, 2010, and 2011 of foreign
      organizations receiving centrally funded awards to make clear which recipients must
      undergo audits and what awards should be audited.

      Recommendation 4. We recommend that the Contract Audit and Support Division notify
      in writing the foreign recipients of centrally funded awards required to have a fiscal year
      2009 audit that sanctions could be imposed on recipients unable or unwilling to have an
      audit performed in accordance with the Guidelines for Financial Audits Contracted by
      Foreign Recipients and that noncompliant audits may not be paid for with USAID-
      provided funds.




4
    Calculated by Contract Audit and Support Division staff.

                                                                                                    6
EVALUATION OF MANAGEMENT
COMMENTS
USAID’s Contract Audit and Support Division agreed with the report’s four recommendations.
Management presented plans to implement all of the recommendations by May 1, 2012. Based
on an evaluation of management’s response to the draft report, management decisions have
been reached on all four recommendations. The Audit Performance and Compliance Division
will make determinations of final action on these recommendations upon completion of the
planned corrective actions.

Recommendation 1. Management agreed with the recommendation and plans to take action
to obtain any already procured fiscal year 2009 audits for the identified foreign recipients and to
prompt the remaining recipients with active awards to have audits as required. The target date
for completion of these actions is January 31, 2012.

Recommendation 2. Management agreed with the recommendation and plans to verify
whether the fiscal year 2009 audits of the 13 foreign recipients were indeed insufficient in scope
to meet the requirements of the ―Guidelines for Financial Audits Contracted by Foreign
Recipients.‖ Those recipients identified as having had insufficient audits will be prompted to
procure an audit that meets the requirements of the Guidelines. The target date for completion
of these actions is January 31, 2012.

Management also expressed concerns about funding, capabilities, and authorities to procure
some of these audits. In particular, management expects that some foreign recipients will
challenge USAID’s authority to request additional audit effort after awards for fiscal year 2009
have been administratively closed.

Consistent with ADS 591.2(g), OIG will provide technical advice related to the audits and can
assist in providing for or arranging audit coverage as requested by USAID. OIG notes that
ADS 591.2(d) identifies the Management Control Review Committee as responsible for serving
as a decision-making body in situations involving audit issues.

OIG expects that USAID will routinely ensure that financial audits required by ADS 591 of
foreign nonprofit and foreign government recipients are procured. However, in some rare
circumstances, it may be impractical to procure such audits. Producing and maintaining
inventories of organizations receiving centrally funded awards to make clear which recipients
must undergo audits and what awards should be audited would help prevent such
circumstances. If it is not practical to reaudit some of the 13 identified recipients, Agency
policies provide alternatives, such as heightened scrutiny of the recipient in subsequent periods.

Recommendation 3. Management agreed with the recommendation and plans to publish the
three inventories. The target date for completion of these actions is May 1, 2012.

Recommendation 4. Management agreed with the recommendation and will notify the
recipients of possible sanctions by January 31, 2012.




                                                                                                 7
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Inspections and Evaluations Division conducted this review to determine whether
required audits of foreign recipients of centrally funded awards were performed. This review
was conducted in accordance with the July 2007 revision of ―the Government Auditing
Standards‖5—specifically, with the general standards in Chapter 3, the documentation standards
in Sections 7.72–7.79, the evidence standard in Section 7.55, and the standards for developing
elements of a finding in Sections 7.72–7.76. Those standards require that we plan and perform
the review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with the review objective. We believe that the evidence
obtained provides that reasonable basis.

We conducted fieldwork in Washington, D.C., from July 7 to October 12, 2011. We used
electronic records from headquarters offices about awards they had made and from OIG offices
about recipient-contracted and Agency-contracted audit reports received. The review did not
consider audits required of public international organizations, which are subject to different and
sometimes unique audit requirements. USAID/Washington operating units with award-making
authority, regional inspectors general, and OIG divisions in Washington supported the review
team with information on audits and confirmation of award information.

Methodology
The review’s approach for answering the review objective was to compare information about
foreign nonprofit and foreign government recipients of centrally funded awards with information
about audits performed in order to show disparities. Such disparities would reveal where
required audits had not been performed.

USAID/Washington organizations provided data about the recipients. We analyzed the data
and consulted with program officials to improve its suitability for the comparison. For example,
data about recipients outside the scope of the review, such as U.S.-based organizations,
mission-managed awards, and public international organizations, were identified, confirmed,
and removed. Similarly, we collaborated with program officials to reduce variations in the
presentation of recipient names and duplications.

Paragraph 1.5 of the Guidelines requires a financial audit ―when the recipient expends $300,000
or more in USAID awards in its fiscal year.‖ The Guidelines also require that those audits be
shared with OIG for review and issuance. Because information about expenditures during each
recipient’s respective fiscal year could not readily be obtained, we used an estimation procedure
to determine which recipients should have been audited. We assumed that awards were spent
on a ―straight line‖ basis (e.g. for a 4-year award, we assumed that one fourth of the award
amount was spent each year). Accordingly, we estimated the annual funding for each centrally
funded award and summed these amounts by recipient to estimate how much each recipient
expended in fiscal year 2009. We also assumed that recipients with $500,000 or more in
estimated expenditures for fiscal year 2009 were required to have had an audit performed that

5
    Government Auditing Standards, GAO 07-731G (July 2007 revision).

                                                                                                8
                                                                                   Appendix I


year. We believe that our estimation procedure underestimated the number of recipients
requiring audit because we used a $500,000 threshold instead of the $300,000 threshold in the
Guidelines. Officials in OAA agreed to this approach and the threshold used. Information about
recipients with funding exceeding the $500,000 threshold was compared with audits submitted
to OIG to identify where likely required audits were not performed or were incompletely
performed. These disparities prompted the recommendations.




                                                                                            9
                                                                                      Appendix II



MANAGEMENT COMMENTS


November 14, 2011

MEMORANDUM


TO:            IG/A/IE, Joy Kadnar

FROM:          M/OAA/CAS, Steve Tashjian /s/

SUBJECT:       Review of Audits of Foreign Organizations Expending Centrally Funded
               Assistance (Report No. 2-000-11-00X-S)

The Office of Acquisition and Assistance has reviewed the subject audit report and appreciates
the time and effort that the Office of the Inspector General (OIC) put forth on this review. We
are presenting the following comments for recommendations 1 through 4 under the subject audit
report.


Recommendation 1: We recommend that the Contract Audit and Support Division require that,
among the 52 foreign recipients identified in Appendix III, those with active awards be audited
for fiscal year 2009 in accordance with the Guidelines for Financial Audits Contracted by
Foreign Recipients.

Management Position: OAA management concurs with recommendation 1.

Management Decision: The Contract Audit Management (CAM) Branch will contact each
foreign recipient to ascertain if a recipient contracted audit (RCA) was procured and if so obtain
it. If it is determined that no RCA has yet been procured, each foreign recipient will be advised
of the requirement and the sanctions that can be imposed for failure to comply with this
requirement. All 52 foreign recipients with active awards will be contacted by January 31, 2012.

Recommendation 2: We recommend that the Contract Audit and Support Division require that,
among the 13 foreign recipients identified in the table above, those with active awards be re-
audited for fiscal year 2009 in accordance with the Guidelines for Financial Audits Contracted
by Foreign Recipients.
Management Position: OAA management concurs with recommendation 2.

                                                                                               10
                                                                                       Appendix II



Management Decision: The CAM Branch will contact each of the 13 identified foreign
recipients with active awards to determine if the RCAs were indeed insufficient under the terms
and conditions of the governing awards. Each recipient deemed to have an insufficient RCA will
be requested to procure a new audit that fully meets the requirements of the Guidelines for
Financial Audits Contracted by Foreign Recipients as well as be advised of the sanctions that can
be imposed for failure to comply with this requirement. All 13 foreign recipients with active
awards will be contacted by January 31, 2012.

There is some concern however of the ability of these firms to procure RCAs where no funds
remain under its grants and where USAID makes it clear that we will not provide additional
funds. It is also expected that some of these foreign recipients will challenge the authority of
USAID to request additional audit effort, especially where all applicable awards for fiscal year
2009 have already been administratively closed. Since the apparent authority for requesting
additional audit effort comes from the OIG issued Guidelines for Financial Audits Contracted by
Foreign Recipients and hence ultimately by the IG Act itself, we will look to the OIG for clarity
and guidance regarding questions about legality, our ability to enforce our request and
subsequent claims that may arise. We want to be unequivocal however in our support for the
IG’s efforts and that if the IG decides to prosecute this issue directly we will do our utmost to
support this prosecution.

Recommendation 3: We recommend that the Contract Audit and Support Division develop and
publish inventories for fiscal years 2009, 2010, and 2011 of foreign organizations receiving
centrally funded awards to make clear which recipients must undergo audits and what awards
should be audited.

Management Position: OAA management concurs with recommendation 3.

Management Decision: The CAM Branch will develop and publish audit inventories for fiscal
years 2009 through 2011 of foreign recipient receiving centrally funded awards by April 31,
2012.

Recommendation 4: We recommend that the Contract Audit and Support Division notify in
writing the foreign recipients of centrally funded awards required to have a fiscal year 2009 audit
that sanctions could be imposed on recipients unable or unwilling to have an audit performed in
accordance with the Guidelines for Audits Contracted by Foreign Recipients and that
noncompliant audits may not be paid for with USAID-provided funds.

Management Position: OAA management concurs with recommendation 4.

Management Decision: The CAM Branch will advise that portion of the 65 foreign recipients
that have current awards with USAID which had either an incomplete RCA or no RCA, of the
sanctions that can be imposed for failure to comply the Guidelines for Audits Contracted by
Foreign Recipients by January 31, 2012.




                                                                                                11
                                                                                    Appendix III



UNAUDITED RECIPIENTS
No fiscal year 2009 audit was presented to OIG for the following 52 centrally funded foreign
recipients. See page 4 for additional information.


No.                                       Recipient Name
 1     Strategic Development Cooperation-Asia
 2     International Alert
 3     Aga Khan Foundation (Mozambique)
 4     AccountAbility
 5     Retrak
 6     Partnership for Road Safety Foundation
 7     Concern Universal
 8     ONG Le Soutien
 9     Overseas Development Institute (ODI)
10     African Economic Research Consortium
11     Caritas Senegal
12     Bayer Schering Pharma AG
13     Water Sanitation for the Urban Poor (WSUP)
14     Global Organization of Parliamentarians Against Corruption
15     ZOA Refugee Care
16     Fauna and Flora International
17     Horn Relief
18     Tshwane Leadership Foundation
19     Terre des Hommes
20     Kindernothilfe e.V.
21     Emergency Nutrition Network
22     People in Need
23     Genesis Trust (Ugu AIDS Alliance)
24     Motivation Charitable Trust
25     Comitato Internazionale per lo Sviluupo dei Popoli
26     International Centre for Migration Policy Development
27     Light and Courage Centre Trust
28     Woord en Daad
29     University of Aberdeen
30     ADPP
31     Caritas del Peru
32     Rights Consortium
33     Justice Studies Center of the Americas
34     Church Alliance for Orphans
35     International Society for Prosthetics and Orthotics
36     PRISMA
37     European Cooperative for Rural Development (EUCORD)
38     Youth Health Organization
39     Ajuda de Desenvolvimento de Povo para Povo (ADPP)


                                                                                               12
                                                                  Appendix III


No.                                  Recipient Name
40    Schering Oy
41    Unidus Corporation
42    African Agricultural Technology Foundation
43    Global Alliance for Improved Nutrition (GAIN)
44    Kara Counselling and Training Trust
45    Medical Emergency Relief International
46    International Fund for Ireland
47    HOPE worldwide
48    Norwegian People’s Aid
49    International Union Against Tuberculosis and Lung Disease
50    Relief Society of Tigray
51    Medicines for Malaria Venture
52    Instituto Libertad y Democracia




                                                                           13
